Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of High-Dollar Medicare Payments to Hospitals for Inpatient Claims Processed by National Government Services for the Period January 1, 2003, Through December 31, 2005
July 24, 2008 | Audit A-02-08-01002
Executive Summary
National Government Services (formerly Empire Medicare Services) overpaid providers $464,000 for 18 of the 100 high-dollar payments ($200,000 or more) in our statistical sample for calendar years 2003-2005.  Providers refunded five overpayments, totaling $65,000, prior to our fieldwork.  At the start of our fieldwork, 13 of the overpayments, totaling $398,000, remained outstanding.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS